No. _________
IN THE SUPREME COURT OF THE UNITED STATES

MIGUEL MARTINEZ-FIGUEROA,

Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

Christopher Curtis
Assistant Federal Public Defender
Federal Public Defender's Office
Northern District of Texas
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
Chris_Curtis@fd.org

APPENDIX TABLE OF CONTENTS
APPENDIX

DOCUMENT DESCRIPTION

APPENDIX PAGE RANGE

App. A

Judgment and Opinion of the United
States Court of Appeals for the Fifth Circuit.
United States of America v. Martinez-Figueroa,
No. 20-10647

1-3

App. B

Judgment and Sentence of the United States
District Court for the Northern District of Texas.
United States of America v. Martinez-Figueroa,
USDC No. 4:19-CR-339-P-1

1-5

APPENDIX A

Case: 20-10647

Document: 00515682484

Page: 1

Date Filed: 12/22/2020

United States Court of Appeals
for the Fifth Circuit
___________
No. 20-10647
Summary Calendar
___________

United States Court of Appeals
Fifth Circuit

FILED
December 22, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Miguel Martinez-Figueroa,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-339-1
____________________________
Before Higginbotham, Jones, and Costa, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A 001

Case: 20-10647

Document: 00515682415

Page: 1

Date Filed: 12/22/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
No. 20-10647
Summary Calendar

December 22, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Miguel Martinez-Figueroa,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-339-1
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
Miguel Martinez-Figueroa appeals his within-guidelines sentence of
30 months of imprisonment and three years of supervised release, imposed
following his guilty plea conviction for illegal reentry after removal. He
argues that the enhancement of his sentence based on a prior conviction

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A 002

Case: 20-10647

Document: 00515682415

Page: 2

Date Filed: 12/22/2020

No. 20-10647

pursuant to 8 U.S.C. § 1326(b)(2), which increased the statutory maximum
term of imprisonment to 20 years and the statutory maximum term of
supervised release to three years, is unconstitutional because his prior
conviction is treated as a sentencing factor rather than an element of the
offense that must be alleged in the indictment and found by a jury beyond a
reasonable doubt. He correctly concedes that the issue is foreclosed by
Almendarez-Torres v. United States, 523 U.S. 224 (1998), but he seeks to
preserve the issue for possible Supreme Court review. The Government has
filed an unopposed motion for summary affirmance and, alternatively, seeks
an extension of time to file its brief.
Because the issue is foreclosed, see United States v. Wallace, 759 F.3d
486, 497 (5th Cir. 2014); United States v. Rojas-Luna, 522 F.3d 502, 505-06
(5th Cir. 2008), summary affirmance is appropriate, see Groendyke Transp.,
Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, the Government’s alternative motion for an extension of time
to file a brief is DENIED, and the judgment of the district court is
AFFIRMED.

2

App. A 003

APPENDIX B

Case 4:19-cr-00339-P Document 36 Filed 06/19/20

Page 1 of 5 PageID 86

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:19-CR-00339-P(01)
U.S. Marshal’s No.: 86404-179
Shawn Smith for Levi Thomas, Assistant U.S. Attorney
John Stickney, Attorney for the Defendant

MIGUEL MARTINEZ-FIGUEROA

On December 18, 2019 the defendant, MIGUEL MARTINEZ-FIGUEROA, entered a plea of guilty as
to Count One of the Indictment filed on November 14, 2019. Accordingly, the defendant is adjudged guilty of
such Count, which involves the following offense:
Title & Section

Nature of Offense

Offense Ended

Count

8 U.S.C. § 1326(a) and (b)(2)

Illegal Reentry After Deportation

10/4/2019

One

The defendant is sentenced as provided in pages 2 through 4 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Indictment
filed on November 14, 2019.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.

Sentence imposed June 16, 2020.

____________________________________________
MARK T. PITTMAN
U.S. DISTRICT JUDGE

Signed June 19, 2020.

App. B 001

Case 4:19-cr-00339-P Document 36 Filed 06/19/20

Page 2 of 5 PageID 87

Judgment in a Criminal Case
Defendant: MIGUEL MARTINEZ-FIGUEROA
Case Number: 4:19-CR-00339-P(1)

Page 2 of 5

IMPRISONMENT
The defendant, MIGUEL MARTINEZ-FIGUEROA, is hereby committed to the custody of the Federal
Bureau of Prisons (BOP) to be imprisoned for a term of THIRTY (30) months as to Count One of the
Indictment filed on November 14, 2019. This sentence shall run consecutively to any future sentence which
may be imposed for a probation revocation in Case No. M-58-FR-2018-00089, Union County Magistrate Court
in Clayton, Clayton, New Mexico; and CR21178, 271st District Court, Wise County in Decatur, Texas, which
are unrelated to the instant federal offense.
The Court recommends to the Bureau of Prisons that the defendant be incarcerated at a facility near the
Dallas/Fort Worth, Texas area, if eligible. The Court further recommends that the defendant be able to
participate in any educational/vocational courses, if possible.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of
THREE (3) years as to Count One of the Indictment filed on November 14, 2019.
As a condition of supervised release, upon the completion of the sentence of imprisonment, the
defendant shall be surrendered to a duly-authorized immigration official for deportation in accordance with the
established procedures provided by the Immigration and Nationality Act, 8 USC § 1101 et seq. As a further
condition of supervised release, if ordered deported or removed, the defendant shall remain outside the United
States.
In the event the defendant is not deported immediately upon release from imprisonment, or should the
defendant ever be within the United States during any portion of the term of supervised release, the defendant
shall also comply with the standard conditions contained in the Judgment and shall comply with the mandatory
and special conditions stated herein:
1) The defendant shall report to the probation office in the federal judicial district where he or she is
authorized to reside within 72 hours of release from imprisonment, unless the probation officer
instructs the defendant to report to a different probation office or within a different time frame;
2) After initially reporting to the probation office, the defendant will receive instructions from the
court or the probation officer about how and when to report to the probation officer, and the
defendant shall report to the probation officer as instructed;
3) The defendant shall not knowingly leave the federal judicial district where he or she is
authorized to reside without first getting permission from the court or the probation officer;
4) The defendant shall answer truthfully the questions asked by the probation officer;

App. B 002

Case 4:19-cr-00339-P Document 36 Filed 06/19/20
Judgment in a Criminal Case
Defendant: MIGUEL MARTINEZ-FIGUEROA
Case Number: 4:19-CR-00339-P(1)

Page 3 of 5 PageID 88
Page 3 of 5

5) The defendant shall live at a place approved by the probation officer. If the defendant plans to
change where he or she lives or anything about his or her living arrangements (such as the people
the defendant lives with), the defendant shall notify the probation officer at least 10 days before
the change. If notifying the probation officer at least 10 days in advance is not possible due to
unanticipated circumstances, the defendant shall notify the probation officer within 72 hours of
becoming aware of a change or expected change;
6) The defendant shall allow the probation officer to visit the defendant at any time at his or her
home or elsewhere, and the defendant shall permit the probation officer to take any items
prohibited by the conditions of the defendant's supervision that he or she observed in plain view;
7) The defendant shall work full time (at least 30 hours per week) at a lawful type of employment,
unless the probation excuses the defendant from doing so. If the defendant does not have fulltime employment, he or she shall try to find full-time employment, unless the probation officer
excuses the defendant from doing so. If the defendant plans to change where the defendant works
or anything about his or her employment (such as the position or the job responsibilities), the
defendant shall notify the probation officer at least 10 days before the change. If notifying the
probation officer in advance is not possible due to unanticipated circumstances, the defendant
shall notify the probation officer within 72 hours of becoming aware of a change or expected
change;
8) The defendant shall not communicate or interact with someone the defendant knows is engaged
in criminal activity. If the defendant knows someone has been convicted of a felony, the
defendant shall not knowingly communicate or interact with that person without first getting the
permission of the probation officer;
9) If the defendant is arrested or questioned by a law enforcement officer, the defendant shall notify
the probation officer within 72 hours;
10) The defendant shall not own, possess, or have access to a firearm, ammunition, destructive
device, or dangerous weapon (i.e., anything that was designed , or was modified for, the specific
purpose of causing bodily injury or death to another person, such as nunchakus or tasers);
11) The defendant shall not act or make an agreement with a law enforcement agency to act as a
confidential human source or informant without first getting the permission of the court;
12) If the probation officer determines that the defendant poses a risk to another person (including an
organization), the probation officer may require the defendant to notify the person about the risk
and the defendant shall comply with that instruction. The probation officer may contact the
person and confirm that the defendant has notified the person about the risk; and,
13) The defendant shall follow the instructions of the probation officer related to the conditions of
supervision.

App. B 003

Case 4:19-cr-00339-P Document 36 Filed 06/19/20

Page 4 of 5 PageID 89

Judgment in a Criminal Case
Defendant: MIGUEL MARTINEZ-FIGUEROA
Case Number: 4:19-CR-00339-P(1)

Page 4 of 5

In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
refrain from any unlawful use of a controlled substance. The defendant must submit to one drug test
within 15 days of release from imprisonment and at least two periodic drug tests thereafter, as
determined by the court; and,
report in person to the U.S. Probation Office in the district to which the defendant is released from
custody of the Federal Bureau of Prisons, or in which the defendant makes entry into the United
States, within 72 hours of release or entry.

FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the
financial resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

App. B 004

Case 4:19-cr-00339-P Document 36 Filed 06/19/20

Page 5 of 5 PageID 90

Judgment in a Criminal Case
Defendant: MIGUEL MARTINEZ-FIGUEROA
Case Number: 4:19-CR-00339-P(1)

Page 5 of 5

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.

United States Marshal
BY
Deputy Marshal

App. B 005

